No. 20-161
In the

Supreme Court of the United States
__________________
CITY OF SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, SAMUEL D. SOMERS, JOHN C. TENNIS,
AND RANDY R. LOZOYA,
Petitioners,
v.
ROBERT MANN, SR., VERN MURPHY-MANN, AND
DEBORAH MANN,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

REPLY BRIEF FOR PETITIONERS
__________________
MATTHEW RUYAK
SEAN RICHMOND
Office of City Attorney
915 I Street, Fourth Floor
Sacramento, CA 95814
(916) 808-5346
Counsel for Petitioners
City of Sacramento,
Sacramento Police
Department, and
Samuel D. Somers

JOHN A. WHITESIDES
(Counsel of Record)
SERENA M. WARNER
ANGELO, KILDAY & KILDUFF, LLP
601 University Avenue
Suite 150
Sacramento, CA 95825
(916) 564-6100
jwhitesides@akk-law.com
Counsel for Petitioners
John C. Tennis, and
Randy R. Lozoya

September 25, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
REPLY BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

PETITIONERS REPEATEDLY RAISED
EACH ISSUE PRESENTED FOR
REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. MANN II. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. MANN III . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

II.

THE NINTH CIRCUIT DECIDED EACH
ISSUE PRESENTED . . . . . . . . . . . . . . . . . . . 6
A. WHETHER LIABILITY FOR ASSOCIATIONAL
DEPRIVATION REQUIRES AN INTENT TO
HARM THE PROTECTED ASSOCIATION . . . . . 7
B. WHETHER THE FIRST AMENDMENT
P ROTECTS I NTIMATE R ELATIONSHIPS
ABSENT EXPRESSIVE ACTIVITY . . . . . . . . . . 7
C. WHETHER FIRST AMENDMENT PROTECTION
EXCEEDS WHAT THE DUE PROCESS CLAUSE
PROVIDES . . . . . . . . . . . . . . . . . . . . . . . . . . 8

III.

THE
OPPOSITION’S
MERITS
DISCUSSION SUPPORTS CERTIORARI. . . 8
A. WHETHER THE FIRST AMENDMENT
P ROTECTS INTIMATE R ELATIONSHIPS
LACKING EXPRESSIVE ACTIVITY . . . . . . . . . 9

ii
B. W H E T H E R F I R S T A M E N D M E N T
P R OT E C T I ON D I F F E R S F R OM D UE
PROCESS PROTECTION . . . . . . . . . . . . . . . 10
C. WHETHER SIBLING PROTECTION CAN EXIST
WITHOUT COHABITATION . . . . . . . . . . . . . 11
D. WHETHER INCIDENTAL DEPRIVATIONS
SUFFICE . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
APPENDIX
Appendix 1 Appellants’ Opening Brief Excerpts in
the United States Court of Appeals for
the Ninth Circuit
(January 19, 2018) . . . . . . . . . . . . App. 1
Appendix 2 Appellees’ Answering Brief Excerpts
in the United States Court of Appeals
for the Ninth Circuit
(July 24, 2019). . . . . . . . . . . . . . . App. 15
Appendix 3 Joint Petition for Rehearing en banc
Excerpts in the United States Court of
Appeals for the Ninth Circuit
(May 15, 2020). . . . . . . . . . . . . . . App. 27
Appendix 4 Memorandum
of
Poi nt s and
Authorities in Support of Defendants
John C. Tennis and Randy R. Lozoya’s
Motion to Dismiss Plaintiffs’ First
Amended Complaint [Rule 12(b)(6)]
Excerpts in the United States District
Court Eastern District of California
(January 11, 2019) . . . . . . . . . . . App. 44

iii
TABLE OF AUTHORITIES
CASES
Arcara v. Cloud Books, Inc.,
478 U.S. 697 (1986). . . . . . . . . . . . . . . . . . . . . . . 12
Board of Dir. of Rotary Int’l v. Rotary Club
of Duarte, 481 U.S. 537 (1987) . . . . . . . . . . passim
Joseph v. United States,
574 U.S. 1038, 135 S. Ct. 705 (2014) . . . . . . . . . . 6
Keates v. Koile,
883 F.3d 1228 (9th Cir. 2018). . . . . . . . . . . . . . . . 3
Michael H. v. Gerald D.,
491 U.S. 110 (1989). . . . . . . . . . . . . . . . . . . . 10, 11
Roberts v. United States Jaycees,
468 U.S. 609 (1984). . . . . . . . . . . . 9, 10, 11, 12, 13
Ward v. City of San Jose,
967 F.2d 280 (9th Cir. 1991). . . . . . . . . . . . . . . . . 8
CONSTITUTION
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim
RULE
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
REPLY BRIEF
Respondents challenge neither the presence, nor the
extent, of the inter-circuit divisions over First
Amendment intimate relationship protection, nor the
corresponding anomaly in this Court’s history of Board
of Dir. of Rotary Int’l v. Rotary Club of Duarte, 481 U.S.
537 (1987), nor the circuits’ dissension over sibling
rights, nor that the Ninth Circuit uniquely recognizes
liability for incidental associational deprivation. Nor
do Respondents paint these questions as
constitutionally insignificant. Thus the opposition
silently concedes the petition amply satisfies Rule 10.
Instead, the opposition tries to dodge three of the
four questions Petitioners posed by misrepresenting
that (a) Petitioners argued below solely that sibling
standing requires cohabitation, and (b) the Ninth
Circuit hasn’t yet decided anything beyond that
cohabitation does not control the presence of an
intimate relationship. The former is factually false,
literally four times over. The latter ignores that Mann
III expressly and necessarily recognizes the conceptual
validity of a First Amendment intimate relationship
claim that exceeds due process rights and doesn’t
require targeted interference.
Perhaps most
importantly, regardless of what outcome might occur in
this case absent certiorari, the severe splits and
pluralities described in the petition will persist, which
renders the petition quite ripe.
As to the merits of Petitioners’ constitutional
defenses, Respondents largely beg those questions by
persistently relying on Rotary Club as controlling
precedent. Tellingly, the opposition does not attempt

2
to harmonize the severity of the circuit courts’
disagreements with the purported clarity of Rotary
Club’s governance. So, even if Respondents correctly
construe Rotary Club, many circuit judges labor under
the same miscomprehensions as Petitioners, which
confusion only this Court can rectify.
I. PETITIONERS REPEATEDLY RAISED EACH
ISSUE PRESENTED FOR REVIEW
Respondents neither attack the petition’s statement
of the case as incorrect, nor present a different
litigation history. Instead, they summarily assert that
Petitioners proceeded in Mann II and III exclusively by
contending Joseph didn’t reside with his siblings
proximate to his death, failing to raise the other three
issues advanced by the petition. Because this Court
typically avoids reaching matters newly raised in a
certiorari petition, Respondents paint this case as a
poor vessel for addressing the corresponding circuit
splits.
In their haste to escape the petition’s substance,
Respondents trample history, which reflects
Petitioners’ repeated efforts to obtain and uphold
dismissal on each constitutional ground now presented,
subject to limited and temporary exceptions mandated
by other conflicting Ninth Circuit decisions the Mann
II and III panels lacked the power to resolve, but which
did not preclude review en banc or by this Court.
A. MANN II
The initial district court decision framed the
question as whether First Amendment associational
loss claims “are subject to the same [standing]

3
limitation” as those under the Due Process Clause,
which it reluctantly answered negatively in light of
Rotary Club. App. 20-21. The Officers’ opening
appellate brief in Mann II led with the argument that
“the district court inaptly recognized First Amendment
standing for an association both unrelated to protected
expression and not targeted by the Officers.” Reply
App. 6. The Officers next showed that the Ninth
Circuit alone recognizes standing to sue for an
incidental family disassociation (Reply App. 6-9), then
challenged the Manns’ effort to shift the source of
protection from the Due Process Clause to the First
Amendment as contrary to both binding Ninth Circuit
authority and numerous pertinent decisions from other
circuits (id. at 10-14). That brief also noted that two
circuits who recognized a First Amendment intimate
association claim applied the same analysis as under
the Due Process Clause. Reply App. 13.
Because, after briefing in Mann II completed, a new
Ninth Circuit decision (Keates v. Koile, 883 F.3d 1228,
1236 (9th Cir. 2018)) recognized First Amendment
protection for intimate relationships, the Officers so
alerted the panel by letter pursuant to FRAP, Rule
28(j), and their counsel began oral argument by stating
the corresponding intra-circuit split precluded the
panel from resolving the threshold issue whether the
First Amendment extends to associations not engaged
in protected expression, a point he reiterated later in
the argument.1 When asked about the split by the
panel, Respondents’ counsel argued that the Ninth
1

Available at: https://www.ca9.uscourts.gov/media/view_video.php
?pk_vid=0000014160 (0:20-1:00; 11:45-13:00).

4
Circuit had long recognized the First Amendment’s
extension to intimate associations lacking an
expressive component.2
B. MANN III
Following Mann II’s reversal and remand, the
Officers’ Rule 12(b)(6) motion asserted that: (a) “five
other circuits expressly reject(ed) First Amendment
protection for any intimate relationships, absent
expressive activity” (Reply App. 47); (b) prior to Mann
II, “the Ninth Circuit had not . . . clarified whether the
elements of a First Amendment associational claim
matched those of a due process claim,” whereas the
Manns previously argued for greater First Amendment
protection (Reply App. 49); and (c) the Ninth Circuit’s
anomalous allowance of incidental disassociation for
due process claims should not extend to the First
Amendment, where courts normally require a causal
nexus between the protected conduct and state action
(id. at 50-51).
On appeal, the Officers’ answering brief repeated
their lament that the intra-circuit split precluded panel
determination of “whether the First Amendment
extends to disruption of intimate relationships
unrelated to protected expression,” but asserted that
the affirmance could be achieved on other grounds,
rendering en banc review unnecessary. Reply App. 1719, 20. On the other hand, the Officers argued reversal
was barred because the admitted absence of expressive
conduct precluded a “finding that the FAC adequately
2

Id. at 16:10-18:50. Respondents’ counsel also conceded the
absence of expressive conduct. Id. at 17:40-46.

5
pleads, or could be amended to plead, a First
Amendment violation.” Reply App. 20.
Alternatively, the Officers argued that First
Amendment protection for intimate relationships
clashed with this Court’s decisional history (Reply App.
21-26):
In summary, over the past 60 years, the Court
has consistently identified the Due Process
Clause as the source of intimate relationship
protection, without suggesting a First
Amendment analog – its unique contrary
statement in Rotary Club, which inaccurately
described its prior decisions, aptly held no sway
over its subsequent analyses.
App. 25-26.
Given Mann III’s recognition of First Amendment
protection for intimate relationships, and to an extent
beyond that afforded by the Due Process Clause such
that it could encompass siblings, the Officers and City
jointly petitioned for en banc rehearing. Reply App. 27.
The petition sought resolution of the intra-circuit split
on First Amendment protection for non-expressive
associations, as well as the “subsidiary internal split
about whether such protection matches, or rather
exceeds, that under the Due Process Clause.” Reply
App. 28-31. Yet again, Petitioners argued that the
notion of First Amendment protection for intimate
relationships contradicted this Court’s jurisprudence
(other than the stray reference in Rotary Club). Reply
App. 33-37. Petitioners also repeated their position
that the Ninth Circuit’s unique allowance of

6
associational liability based on incidental interference/
deprivation should not extend to siblings, where the
absence of choice in relationship formation warrants a
lesser level of protection. Reply App. 41-42.
In short, the Officers advanced below all four
questions now presented to this Court, despite (1) the
Ninth Circuit’s internal split about First Amendment
intimate relationship protection, which the Officers
addressed in the alternative and challenged by petition
for rehearing en banc; and (2) the constraint on their
counsel and the panels imposed by the Ninth Circuit’s
binding precedent permitting recovery for incidental
associational interference, which view the Officers
nonetheless argued shouldn’t extend to First
Amendment or sibling situations. See Joseph v. United
States, 574 U.S. 1038, 135 S. Ct. 705, 706 (2014)
(stating in denial of certiorari that a party need not
raise in its opening brief below a position foreclosed by
binding circuit precedent).
II. THE NINTH CIRCUIT DECIDED EACH
ISSUE PRESENTED
As indicated above, Respondents inaccurately
portray Mann III as deciding only that cohabitation
isn’t necessary for their associational standing. Also,
their companion assertion that the Ninth Circuit did
not address their complaint’s factual sufficiency,
although correct, misses the mark. Mann III
determined siblings can state a First Amendment
associational violation regardless of protected
expression or government’s intent to interfere with the
relationship, even where due process protection is
absent. Thus Mann III’s reversal and remand legally

7
endorsed the complaint’s constitutional theory of
recovery, just as Mann II rejected it absent
cohabitation.
A. WHETHER LIABILITY FOR ASSOCIATIONAL
DEPRIVATION REQUIRES AN INTENT TO HARM THE
PROTECTED ASSOCIATION
Respondents’ position immediately rings hollow
given their silent acknowledgement that the Ninth
Circuit allows recovery for incidental family
disassociations. See Petition, pp. 13-14. Likewise, the
opposition offers no rebuttal to the petition’s reasoning
that Mann III functionally followed Ninth Circuit
precedent “[b]y reversing the judgment in a situation
where Respondents neither pled, nor offered to plead,
that the Officers shot Joseph in order to deprive their
relationships with him,” and despite Petitioners’
argument that only a targeted deprivation should
suffice regarding siblings. Id. at 14.
B. WHETHER THE FIRST AMENDMENT PROTECTS
INTIMATE RELATIONSHIPS ABSENT EXPRESSIVE
ACTIVITY
On the threshold constitutional issue, Mann III isn’t
silent – it expressly states First Amendment protection
exists for relationships regardless of expressive
conduct. App. 3 (describing Rotary Club as recognizing
a “First Amendment right of familial or intimate
association”). Furthermore, because Respondents
conceded the absence of alleged protected speech, Mann
III necessarily endorsed the notion of First Amendment
protection by reversing and remanding the case to
proceed under the Rotary Club standard, which

8
Mann III did not indicate required expressive
speech/conduct. That remand would have been a futile
act if protected speech were required.
C. WHETHER FIRST AMENDMENT PROTECTION
EXCEEDS WHAT THE DUE PROCESS CLAUSE
PROVIDES
Despite Mann II’s express statement “we analyze
the right of intimate association in the same manner
regardless whether we characterize it under the First
or Fourteenth Amendments” (App. 17), Mann III
expressly differentiated the intimate relationship right
under the First Amendment from its due process
counterpart by limiting Ninth Circuit precedent
regarding siblings (Ward v. City of San Jose, 967 F.2d
280, 284 (9th Cir. 1991)) to the Fourteenth
Amendment. App. 4. By reversing the judgment for
Petitioners, Mann III held sibling relationships can
qualify for protection even without cohabitation,
embracing Respondents’ position that First
Amendment protection exceeds that afforded by the
Due Process Clause.
III. THE OPPOSITION’S MERITS DISCUSSION
SUPPORTS CERTIORARI
As noted above, the opposition neither denies that
Rotary Club is the only time this Court cited the First
Amendment as the source of intimate relationship
protection, nor tries to harmonize Rotary Club with
this Court’s other intimate association decisions, nor
attempts to explain why that inconsistency should be
tolerated. So, by invoking Rotary Club as primary
authority against Petitioners’ position on each of the

9
four questions presented, Respondents effectively
concede their legitimacy.
Additionally, notwithstanding Rotary Club’s
nominal support for the notion of First Amendment
intimate relationship protection, that decision fails to
even superficially aid Respondents on any of the three
other questions presented.
A. WHETHER THE FIRST AMENDMENT PROTECTS
INTIMATE RELATIONSHIPS LACKING EXPRESSIVE
ACTIVITY
On the threshold question, Respondents depend
solely on Rotary Club’s singular First Amendment
reference, arguing “this Court’s resolution of this issue
continues to control,” which begs the question of the
Court’s differing prior and subsequent decisions. Opp.
14. But problems exist even beyond the anomaly of
Rotary Club’s statement – that part of the opinion
didn’t claim to explore new legal territory; rather it
offered a historical summary, echoing Roberts and
other previous decisions without analytically
expanding them. 481 U.S. at 544-545 (“[w]e have
emphasized . . . “).
Furthermore, Respondents’
simplistic stare decisis contention flies in the face of the
circuit courts’ wide divergence on this question; the
opposition does not explain how a contrary position
embraced by numerous panels in various circuits can
nonetheless lack analytical validity to such an extent
as to be unworthy of this Court’s review.

10
B. WHETHER FIRST AMENDMENT PROTECTION
DIFFERS FROM DUE PROCESS PROTECTION
In contrast, concerning whether a First Amendment
intimate relationship right differs from that the Due
Process Clause affords, Rotary Club doesn’t even
facially support Respondents’ proffered distinction of a
historically recognized liberty (Fourteenth) versus a
broader reach to those relationships qualifying under
the Roberts intimacy factors (First) – no corresponding
discussion occurs anywhere in Rotary Club or Roberts.
Instead, the only associational distinction there
mentioned concerned expressive/instrumental
relationships versus intimate/intrinsic relationships.
Roberts, 468 U.S. at 617-618; Rotary Club, 481 U.S. at
544 (so summarizing Roberts).
Michael H. v. Gerald D., 491 U.S. 110 (1989), cited
by Respondents for the proposition that due process
protection moves in lockstep with historical tradition,
actually supports the petition.3
Justice Scalia’s
plurality opinion expressly characterized family
protection as falling under the Due Process Clause (id.
at 121-124), as did all four concurring and dissenting
opinions (id. at 132-163). Despite issuing just two
years after Rotary Club, none of the five opinions
described the First Amendment as a source of
relationship protection. Thus the Manns’ proffered
distinction between First and Fourteenth Amendment

3

As noted in Justice Brennan’s dissent, only Justice O’Connor
subscribed to Justice Scalia’s method of gauging when a liberty
interest qualified for due process protection. Michael H., 491 U.S.
at 136.

11
associational rights, even if generally consistent with
Rotary Club, wouldn’t avail them here because their
purported intimacy stems from family, falling under
Michael H., rather than from non-familial
organizations, as considered in Roberts and Rotary
Club.
And, once again, Respondents’ implication that
their position is obviously correct defies the circuit
courts’ division on the same issue.
C. WHETHER SIBLING PROTECTION CAN EXIST
WITHOUT COHABITATION
Concerning siblings, Respondents wholly fail to
address (a) whether a protected relationship must stem
from mutual choice or (b) the lack of choice by siblings
to become such.
As to the fundamental liberty to decide who to live
with, the opposition mischaracterizes the petition.
Petitioners don’t need to show that people must live
together as a universal prerequisite for intrinsic
relationship protection.
Although this Court
emphasized that intimacy stems from “daily
association” (Pet. 24), which typically derives from
shared residence, protection for chosen relationships
between spouses, or parents and children, can
conceivably extend beyond or after a common
household, such as when a child moves away.
Resolution of that specific issue isn’t here presented or
necessary. Rather the pertinent question, which
Respondents avoid, is whether a relationship can be
constitutionally protected without involving a
fundamental choice. In the case of siblings, because a

12
choice would occur only regarding whether to reside
together, not with relationship formation, cohabitation
is required.
D. WHETHER INCIDENTAL DEPRIVATIONS SUFFICE
Once more, Respondents misplace reliance on
Rotary Club by citing it for the proposition that,
although the Fourteenth Amendment requires targeted
disassociation, the supposedly broader reach of the
First Amendment supports liability for unintended
deprivations.
Like Roberts, Rotary Club solely
addressed direct government regulation – California’s
anti-discrimination laws that precluded a requirement
Rotary Clubs allow only male members. No language
in Roberts or Rotary Club touches on, much less
condones, the notion of incidental deprivation. Nor do
Respondents attempt to square their position with this
Court’s proclamation in Arcara v. Cloud Books, Inc.,
478 U.S. 697, 707 (1986) that law enforcement
unrelated to speech and only indirectly burdening
expression does not implicate the First Amendment.
The issue of targeted interference is where
Respondents’ silence about a corresponding intercircuit split becomes most troubling for them.
Presumably, if standard First Amendment analysis
justified the recognition of liability for merely
incidental disruption, at least a few circuits other than
the Ninth would so hold. But none of those circuit
courts that recognized First Amendment protection for
intimate relationships also allowed liability for
incidental loss. Ironically, Respondents fail to cite even
a Ninth Circuit decision that shares their reasoning for
broader First Amendment protection. Although this

13
complete lack of judicial support doesn’t condemn
Respondents as wrong, the dearth strongly suggests
the petition bears merit on this question.
CONCLUSION
Undisputed are the persistent and growing
divisions within and among the circuits relating to
intrinsic relationship protection, proving that Rotary
Club and Roberts worked well for analyzing large
groups but clouded the picture for friends and relatives.
Typically, this Court sees circuits openly disagree with
their sisters in the relatively straightforward sense of
two sides on a single issue. Here, not only are intercircuit splits or pluralities present on four different
issues, but the exceptional number of internal splits on
the threshold First Amendment protection question –
five circuits concurrently stand divided, most seemingly
unknowingly – confirms a shocking level of analytical
turmoil. The severity of those judicial disagreements
confirms their sole remedy will be this Court’s
explanation of which Amendment(s) pertain and how.
This petition supplies a solid platform to achieve
that goal by presenting a First Amendment claim by
non-cohabitating siblings without any alleged speech or
targeted interference, where Petitioners below
challenged each legal aspect, two circuit panels reached
differing results, yet both they and the district court
heavily relied on Rotary Club.
Also present is the practical importance of resolving
associational standing – this case uniquely stems from
a settlement with the next of kin where state law
wrongful death liability is thus precluded. Absent this

14
Court’s guidance, settling § 1983 death and
incarceration claims will be perilous, at best, due to the
uncertainty of who qualifies as a proper plaintiff.
In short, this is the right case at the right time to
return the constitutional boundaries of the family
liberty interests to the clarity they enjoyed before
Rotary Club by granting the petition.
Respectfully submitted,
MATTHEW RUYAK
SEAN RICHMOND
Office of City Attorney
915 I Street
Fourth Floor
Sacramento, CA 95814
(916) 808-5346
Counsel for Petitioners
City of Sacramento,
Sacramento Police
Department, and
Samuel D. Somers

JOHN A. WHITESIDES
(Counsel of Record)
SERENA M. WARNER
ANGELO, KILDAY & KILDUFF, LLP
601 University Avenue
Suite 150
Sacramento, CA 95825
(916) 564-6100
jwhitesides@akk-law.com
Counsel for Petitioners
John C. Tennis, and
Randy R. Lozoya

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix 1 Appellants’ Opening Brief Excerpts in
the United States Court of Appeals for
the Ninth Circuit
(January 19, 2018) . . . . . . . . . . . . App. 1
Appendix 2 Appellees’ Answering Brief Excerpts
in the United States Court of Appeals
for the Ninth Circuit
(July 24, 2019). . . . . . . . . . . . . . . App. 15
Appendix 3 Joint Petition for Rehearing en banc
Excerpts in the United States Court of
Appeals for the Ninth Circuit
(May 15, 2020). . . . . . . . . . . . . . . App. 27
Appendix 4 Memorandum
of
Points and
Authorities in Support of Defendants
John C. Tennis and Randy R. Lozoya’s
Motion to Dismiss Plaintiffs’ First
Amended Complaint [Rule 12(b)(6)]
Excerpts in the United States District
Court Eastern District of California
(January 11, 2019) . . . . . . . . . . . App. 44

App. 1

APPENDIX 1
Case Number 17-17048
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed: January 19, 2018]
__________________________________________
ROBERT MANN, Sr., et al.,
)
)
Plaintiffs/ Appellees,
)
)
vs.
)
)
CITY OF SACRAMENTO, et al.
)
)
Defendants,
)
)
AND
)
)
JOHN C. TENNIS; RANDY R. LOZOYA, )
)
Defendants/Appellants.
)
__________________________________________)
On Appeal From:
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
Case No. 2:17-cv-01201-WBS-DB
Honorable WILLIAM B. SHUBB

App. 2
APPELLANTS’ OPENING BRIEF
JOHN A. WHITESIDES, SBN 125611
AMIE C. MCTAVISH, SBN 242372
ANGELO, KILDAY & KILDUFF, LLP
601 University Avenue, Suite 150
Sacramento, CA 95825
Telephone: (916) 564-6100
Facsimile: (916) 564-6263
Attorneys for Defendants/Appellants
JOHN C. TENNIS and RANDY R. LOZOYA

[pp. 18-32]
VIII. INTIMATE RELATIONSHIPS NOT
TARGETED DUE TO EXPRESSION SHOULD
RECEIVE SOLELY DUE PROCESS
PROTECTION
A. THE ORIGIN AND NATURE OF CONSTITUTIONAL
PROTECTION FOR FAMILIAL ASSOCIATION
A plaintiff suing under 42 U.S.C. § 1983 must allege
a person acting under color of state law deprived him
of a federal right. Gomez v. Toledo, 446 U.S. 635, 640
(1980). Thus one lacks standing to sue for deprivation
of another’s federal rights. Warth v. Seldin, 422 U.S.
490, 499 (1975) (“the plaintiff generally must assert his
own legal rights and interests, and cannot rest his
claim to relief on the legal rights or interests of third
parties”). As a result, state action against one person
that injures him creates a cause of action solely for
him.

App. 3
But one constitutional right is necessarily shared –
an individual’s right to associate with other people for
protected purposes. In Roberts v. U.S. Jaycees, 468
U.S. 609, 617–618 (1984), the Court described the
associational right as bearing two aspects: the liberty
to enter into and maintain “certain intimate human
relationships” free from undue government intrusion;
and the right to associate for the purpose of First
Amendment activity, i.e., speech, religion, petition, or
assembly. See Pickup v. Brown, 740 F.3d 1208, 1233
(9th Cir. 2014) (so construing Roberts). Roberts also
recognized that government can infringe both aspects
when it interferes with a person’s selection of who he
wishes to “join in a common endeavor.” 468 U.S. at 618.
Roberts gave as examples of the liberty-protected
relationships those “that attend the creation and
sustenance of a family” – marriage, raising and
educating children, and “co-habitation with one’s
relatives.” Id. at 619–620. The Supreme Court deemed
all other relationships to fall along a spectrum of
potential protection from State incursion. Id. at 620.
Roberts held that the Jaycees did not qualify for
constitutional protection in either respect Their male
membership lacked sufficient intimacy for liberty
protection. Id. at 621. In addition, because “the right to
associate for expressive purposes is not absolute,” the
statute requiring admission of women as members,
although potentially impairing the male members’
right to associate exclusively with other men, neither
targeted suppression of speech nor favored a particular
viewpoint, plus served the important policy goal of
eliminating discrimination. Id. at 622–623.

App. 4
A few years later, the Supreme Court reiterated its
analysis that the freedom to engage in certain intimate
relationships is a “fundamental element of liberty,”
again giving as examples marriage, bearing, rearing,
and education of children, and “co-habitation with
relatives.” Bd. of Directors of Rotary Int’l v. Rotary
Club of Duarte, 481 U.S. 537, 545 (1987). Soon
thereafter, the Supreme Court also emphasized that, in
the associational context of a public dance hall, freedom
of speech “means more than simply the right to talk,”
as one can find some form of expression in almost every
activity, and so found constitutional protection absent
under either intimate or expressive aspects for an
ordinance limiting dance hall attendees. City of Dallas
v. Stanglin, 490 U.S. 19, 25 (1989). See Nat’l Ass’n for
Advancement of Colored People v. State of Ala. ex rel.
Patterson, 357 U.S. 449, 460 (1958) (freedom of
association concerns “the advancement of beliefs and
ideas”); Pi Lambda Phi Fraternity, Inc. v. Univ. of
Pittsburgh, 229 F.3d 435, 444 (3d Cir. 2000) (finding
fraternity members possessed insufficient selectivity
for intimate relationships and lacked expressional
association where “[n]othing in the record indicates
that the Chapter ever took a public stance on any issue
of public political, social, or cultural importance”);
Vieira v. Presley, 988 F.2d 850, 852 (8th Cir. 1993)
(friendships not expressive associations where
allegations showed “no protected political, social,
economic, educational, religious or cultural purpose to
these associations”); Swank v. Smart, 898 F.2d 1247,
1251 (7th Cir. 1990) (“Casual chit-chat” between two
persons or in a small group is unprotected for lack of
advancement of knowledge, the transformation of taste,
political change, or cultural expression).

App. 5
Within the family setting, the Supreme Court
expressly identified the Fourteenth Amendment’s Due
Process Clause as protecting the right to cohabitate
with relatives (Moore v. City of E. Cleveland, Ohio, 431
U.S. 494, 499–500 (1977) (ordinance prohibiting
residency with grandchildren)), but it has not yet
articulated the parameters of that liberty interest
protection. See Troxel v. Granville, 530 U.S. 57, 88
(2000), (Diss. Op. of J. Stevens, “[w]hile this Court has
not yet had occasion to elucidate the nature of a child’s
liberty interests in preserving established familial or
family-like bonds . . .”); Kottmyer v. Maas, 436 F.3d
684, 690 (6th Cir. 2006) (“the Supreme Court has yet to
articulate the parameters of this right”).
Given Moore v. East Cleveland, most circuit courts,
including the Ninth, deem the right to familial
association to vest a cause of action under the Due
Process Clause, even for that disassociated relative not
the direct subject of state action. Such suits most often
arise when the State generally regulates the family
relationship, as in Moore, or takes specific action
against a particular family, such as removing minor
children from their parents’ homes and placing them
into protective custody. See e.g., Wallis v. Spencer, 202
F.3d 1126 (9th Cir. 2000).
On the other hand, expressive association claims
falling under the First Amendment typically impact
families where a public employee is terminated or
disciplined due to protected speech or petitioning by a
spouse or other relative. See e.g., Adler v. Pataki, 185
F.3d 35, 44 (2d Cir. 1999) (deeming claim for husband’s
termination based upon wife’s prosecution of civil suit

App. 6
against the State to fall under the First Amendment’s
right of association); Sowards v. Loudon County, Tenn.,
203 F.3d 426, 433–34 (6th Cir. 2000) (applying 1st
Amend. retaliation principles to intimate association
claim by deputy terminated after her husband sought
election as sheriff).
In summary, personal relationships fall into three
constitutional categories: intimate (protected by the
Due Process Clause as an aspect of personal liberty);
expressive (protected by the First Amendment as part
of freedom of speech, petitioning, or assembly); and
merely social (e.g., friends and acquaintances, which
are typically unprotected). Because Plaintiffs lack
standing to sue for a due process violation, they
successfully asserted First Amendment protection
applies even absent expressive activity and reactive
State action. In short, the district court inaptly
recognized First Amendment standing for an
association both unrelated to protected expression and
not targeted by the Officers.
B. O T H E R C I R C U I T S G E N E R A L L Y R E J ECT
U NINTENDED FAMILY D ISASSOCIATIONS AS
ACTIONABLE
What the Supreme Court hasn’t addressed or even
referenced is the situation where intentional
deprivation of an individual’s life or liberty, such as by
seizure, coincidentally diminishes or severs his family
relations, in contrast to where the State either
regulates, or initiates specific action against, the
relationship per se.

App. 7
As asserted above, absent protected expressive
activity, circuit courts typically address family
disassociation claims exclusively under the Due
Process Clause. Moreover, especially where the subject
of government action is an adult child, every other
circuit either denies that constitutional protection
exists or requires the plaintiff show the government
sought familial disassociation as a goal of its action; no
standing to sue exists where the disassociation
happens incidentally. See Robles-Vazquez v. Garcia,
110 F.3d 204, 206, fn. 4 (1st Cir. 1997) (requiring
targeted disassociation); Love v. Riverhead Cent. Sch.
Dist. 823 F.Supp.2d 193, 200 (E.D.N.Y. 2011)
(predicting 2d Circuit would follow the majority view
requiring targeted disassociation, even regarding
minors)5; Chambers v. Sch. Dist. of Phila. Bd. of Educ.,
587 F.3d 176, 191–192 (3d Cir. 2009) (extending
requirement of deliberate interference to parental
relationships with minor children); Shaw v. Stroud, 13
F.3d 791, 804-805 (4th Cir. 1994) (“because the
Supreme Court has never extended the constitutionally

5

But see Patel v. Searles, 305 F.3d 130, 137 (2d Cir. 2002) (stating
in dicta the 2d Circuit had not previously held the officers’ actions
must target the family relationship but finding that, regardless,
the facts alleged showed such conduct had occurred); Morales v.
City of N.Y., 59 F. Supp. 3d 573, 580 (S.D.N.Y. 2014) (holding
qualified immunity applied for lack of clearly established law
regarding incidental impact on family relations and explaining
“the [Patel] Court’s language was plainly dictum”); Deskovic v. City
of Peekskill, 894 F. Supp. 2d 443, 470 (S.D.N.Y. 2012) (“Because
Plaintiffs do not allege that Stephens’ behavior was intentionally
directed at the familial relationship, his alleged misconduct does
not fall within the category of behavior that Patel held (in 2002)
violated the right to familial association”).

App. 8
protected liberty interest incorporated by the
Fourteenth Amendment due process clause to
encompass deprivations resulting from governmental
actions affecting the family only incidentally, we
decline to sanction such a claim at the present time”);
De Fuentes v. Gonzales, 462 F.3d 498, 505 (5th Cir.
2006) (incidental disruption of parental right
insufficient); Claybrook v. Birchwell, 199 F.3d 350, 357
(6th Cir. 2000) (no standing by minor children to sue
for police shooting of father); Russ v. Watts, 414 F.3d
783, 790–791 (7th Cir. 2005) (no standing by parents to
sue for unintentional disassociation from adult son by
police shooting); Reasonover v. St. Louis County, 447
F.3d 569, 585 (8th Cir. 2006) (mother’s incarceration
did not target her relationship with her minor
daughter); Lowery v. County of Riley, 522 F.3d 1086,
1092 (10th Cir. 2008) (father’s incarceration did not
target disruption of relationship with daughter);
Robertson v. Hecksel, 420 F.3d 1254, 1260 (11th Cir.
2005) (no protection for untargeted disruption to adult
child’s association with parent); Butera v. D.C., 235
F.3d 637, 656 (D.C. Cir. 2001) (“a parent does not have
a constitutionally-protected liberty interest in the
companionship of a child who is past minority and
independent”).
Long before these decisions, this circuit took a
contrary view of due process protection (i.e., that intent
to disrupt the family relationship need not be shown),
which was in turn based on the Seventh Circuit’s
decision in Bell v. City of Milwaukee, 746 F.2d 1205,
1238 (7th Cir. 1984), and later extended it to
non-dependent adult children. As noted above, in Russ,
414 F.3d at 791, the Seventh Circuit expressly

App. 9
overruled Bell, leaving the Ninth Circuit’s view of due
process protection unshared. Nonetheless, this circuit
has maintained its unique position that protection
extends to the untargeted disruption of adult
parent-child relations. Johnson v. Bay Area Rapid
Transit Dist., 724 F.3d 1159, 1169 (9th Cir. 2013) (“in
past cases, we have recognized a parent’s right to a
child’s companionship without regard to the child’s
age”). Regardless of the split, all these decisions
recognize the Due Process Clause as the potential or
actual source of constitutional protection. See Johnson,
at 1168–1169 (“[p]arents have a Fourteenth
Amendment right to the companionship of a child”).
In yet another significant respect, this circuit’s view
of familial association tracks with the majority of other
circuits by recognizing a boundary to due process
protection of that liberty interest – it does not extend to
siblings. Ward, 967 F.2d at 283–84 (rejecting 10th
Circuit’s contrary view – “[w]e adopt the earlier and
better rule of Bell. Neither the legislative history nor
Supreme Court precedent supports an interest for
siblings consonant with that recognized for parents and
children”). Accord Valdivieso Ortiz v. Burgos, 807 F.2d
6, 8 (1st Cir. 1986) (refusing to recognize claim by adult
siblings for incidental disassociation). See generally
Harpole v. Arkansas Dep’t of Human Servs., 820 F.2d
923, 928 (8th Cir. 1987) (explaining lack of
grandparent standing for wrongful death claim:
“[p]rotecting familial relationships does not necessarily
entail compensating relatives who suffer a loss as a
result of wrongful state conduct, especially when the
loss is an indirect result of that conduct”).

App. 10
This circuit’s various district courts have aptly
followed Ward.6 See Garlick v. County of Kern, 167
F. Supp. 3d 1117, 1163 (E.D. Cal. 2016) (re police
action, “siblings do not possess a constitutionally
protected liberty interest”); Olvera v. County of
Sacramento, 932 F. Supp. 2d 1123, 1148 (E.D. Cal.
2013) (minor siblings lack protected right to
association); Ostling v. City of Bainbridge Island, 872
F. Supp. 2d 1117, 1127 (W.D. Wash. 2012) (“[n]o such
interest has been recognized for siblings”); Rentz v.
Spokane County, 438 F. Supp. 2d 1252, 1265 (E.D.
Wash. 2006) (adult siblings lack standing).
C. INCIDENTAL DISASSOCIATION DOES NOT QUALIFY
AS A FIRST AMENDMENT VIOLATION
Likely due to the cold reception by other circuits of
incidental disassociation liability, and the Ninth
Circuit’s limitations on standing to assert due process
protection, those relatives more removed than parents,
children, and spouses have increasingly shifted their
intimate relationship claims to the First Amendment.
These efforts have, prior to this action, proven highly
unsuccessful.
IDK, Inc. v. Clark County, 836 F.2d 1185,
1191–1192 (9th Cir. 1988), read Roberts, Moore, and

6

That the Tenth Circuit recognizes sibling standing is rendered
here unavailing to Plaintiffs by its requirement of state action
targeting that relationship. “In order to show deprivation of the
right to familial association, a plaintiff must show that the state
actor intended to deprive him or her of a specially protected
familial relationship.” Estate of B.I.C. v. Gillen, 710 F.3d 1168,
1175 (10th Cir. 2013).

App. 11
other Supreme Court decisions to identify the Due
Process Clause as the source of protection for intimate
relationships “as a fundamental element of personal
liberty,” reserving First Amendment protection to
groups formed for speech, worship, or petition. IDK
deemed the interaction between female escorts and
their clients too transitory and devoid of household
function to warrant due process protection as intimate
(id. at 1193) and found that an expressive component
to the relationship, if present at all, was ancillary to its
commercial purpose (id.at 1193–1196).
In Lee v. City of Los Angeles, 250 F.3d 668, 686 (9th
Cir. 2001), this circuit referenced in dicta (though
presented as a holding) the defendants’ refusals to
disclose to a mother her wrongly-incarcerated son’s
location as actionable disruptions of familial
association under the First and Fourteenth
Amendments.7 Significantly, the Lee opinion referenced
the officers’ deliberate refusal to aid the mother in
locating her son, and not his underlying seizure and
incarceration, as violations, suggesting that First
Amendment protection applied due to the mother’s
petitioning activity.8 Regardless, the Lee opinion did

7

Lee’s record shows neither party to the appeal addressed the
mother’s familial association claim regarding failure to disclose the
son’s location. Instead, the appellants’ opening brief focused on the
wrongful nature of the son’s earlier arrest and extradition to New
York. See 1999 WL 33607094 (C.A.9) at * 21–59.

8

Lee’s emphasis on the mother’s requests for government aid in
finding her son, even though the vast majority of claims in that
case centered on the son’s prior wrongful seizure, defies Plaintiffs’
position that this circuit doesn’t require expressive activity for a

App. 12
not describe the First Amendment right other than by
a single quote from Roberts.
True to Roberts’ distinction between intimate and
associational relationships, sister circuits share IDK’s
view that relationship interference unrelated to
expressive conduct falls exclusively under the Due
Process Clause. These courts have either completely
rejected efforts to recast incidental disassociation as a
First Amendment deprivation or just nominally
permitted them by applying due process standards. See
Christensen v. County of Boone, IL, 483 F.3d 454,
462–63 (7th Cir. 2007) (disruption of unmarried
romantic relationship that lacked expressive aspect
better addressed under Due Process Clause than
under 1st Amend.); Kolley v. Adult Protective Servs.,
725 F.3d 581, 587 (6th Cir. 2013) (dismissing 1st
Amend. claim on grounds intimate association
protection for a child removal falls exclusively under
the 14th Amend.); Thompson v. Ashe, 250 F.3d 399, 406
(6th Cir. 2001) (municipal housing policy restricting
visitation by non-residents did not implicate intimate
association under the 1st Amend.); McCabe v. Sharrett,
12 F.3d 1558, 1563 (11th Cir. 1994) (absent allegation
of association with husband to engage in 1st Amend.
activity, interference with marriage claim solely
implicated liberty interest, citing IDK); Uwadiegwu v.
Dep’t of Soc. Servs. of the Cty. of Suffolk, 91 F. Supp. 3d
391, 397 (E.D.N.Y. 2015) (disruption of family relations

First Amendment violation. See Lee, 250 F.3d at 678 (“Over the
course of the next two years, Mrs. Lee repeatedly contacted the
LAPD regarding the whereabouts of [son] Kerry Sanders. Each
time she was informed that his whereabouts were unknown”).

App. 13
falls under 1st Amend. analysis if retaliatory for
speech, but otherwise is analyzed under substantive
due process), aff’d, 639 F. Appx. 13 (2d Cir. 2016); JL
v. New Mexico Dep’t of Health, 165 F. Supp. 3d 996,
1040-1041 (D.N.M. 2015) (right to family association “is
not protected by the First Amendment but rather by
the Fourteenth Amendment” where “[t]he complaint
alleges the deprivation of the right to family
association as an end in itself, not as a deprivation of
an association for the purpose of pursuing activities
protected by the First Amendment”); Evans v. Pitt
County Dep’t of Soc. Servs., 972 F. Supp. 2d 778, 796
(E.D.N.C. 2013) (holding 1st Amend. right to intimate
association entitled to no greater protection than under
due process), reversed in other part as to other parties,
578 F. Appx. 229 (4th Cir. 2014), and aff’d in pertinent
part, 616 F. App’x 636 (4th Cir. 2015), cert. den., 136 S.
Ct. 2013 (2016). See also Parks v. City of Warner
Robins, Ga., 43 F.3d 609, 616 (11th Cir. 1995)
(“Although the right to marry enjoys independent
protection under both the First Amendment and the
Due Process Clause, the Supreme Court has held that
the same analysis applies in each context”).
Thus IDK’s separation of protected associations
between the First and Fourteenth Amendments,
depending on their purpose, matches that by other
courts. A synthesis of these authorities yields the
following conclusions:
a) Due process analysis governs suits for
interference with intimate relationships unless the
relationship had a significant First Amendment

App. 14
expressive component that caused the adverse
governmental action;
b) All circuits either reject adult sibling standing
or require deliberate interference with a sibling
relationship for a due process violation;
c) The two courts that recognized a First
Amendment intimate association claim absent
expressive conduct analyzed it identically to a due
process claim; and
d) No Ninth Circuit decision suggests a First
Amendment claim lies absent targeted disassociation
and/or protected expression, or that adult siblings,
simply by virtue of their blood relations, would possess
corresponding standing to sue.
D. THE DISTRICT COURT’S ORDER IGNORED
PERTINENT PRECEDENT

THE

Although the district court’s order quoted IDK for
the notion that expressive associations fall within the
First Amendment, the order failed to apply to the
complaint the corresponding requirement of such
protected activity; instead it leapt to the much broader
conclusion that relatives beyond spouses, parents, and
children must be embraced. (ER 11–12.) Although
Moore v. East Cleveland confirms that another
*

*

*

App. 15

APPENDIX 2
Case Number 19-15483
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed: July 24, 2019]
__________________________________________
ROBERT MANN, Sr., et al.,
)
)
Plaintiffs/ Appellants,
)
)
vs.
)
)
CITY OF SACRAMENTO, et al.
)
)
Defendants,
)
)
AND
)
)
JOHN C. TENNIS; RANDY R. LOZOYA, )
)
Defendants/ Appellees.
)
__________________________________________)
On Appeal From:
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
Case No. 2:17-cv-01201-WBS-DB
Honorable WILLIAM B. SHUBB

App. 16
APPELLEES’ ANSWERING BRIEF
JOHN A. WHITESIDES, SBN 125611
ANGELO, KILDAY & KILDUFF, LLP
601 University Avenue, Suite 150
Sacramento, CA 95825
Telephone: (916) 564-6100
Facsimile: (916) 564-6263
Attorneys for Defendants/Appellees
JOHN C. TENNIS and RANDY R. LOZOYA

[pp. 21-25]
Court reviews that heightened pleading requirement
for abuse of discretion. See McBride v. Int’l
Longshoremen’s Assn., 778 F.3d 453, 461 and 463 (3d
Cir. 2015) (applying abuse of discretion standard to
district court’s orders following remand with grant of
discretion).
The only part of the appeal where de novo review
still pertains is whether the FAC’s factual averments
met the heightened pleading standard.
C. LEAVE TO AMEND
A district court’s decision to dismiss a complaint
without leave to amend is reviewed for abuse of
discretion. Salameh v. Tarsadia Hotel, 726 F.3d 1124,
1129 (9th Cir. 2013). The district court’s discretion is

App. 17
“particularly broad” where the plaintiff has previously
amended. Id. at 1133.8
D. THE THRESHOLD FIRST AMENDMENT ISSUE
REMAINS UNREVIEWABLE EXCEPT EN BANC
Because this circuit has issued irreconcilable
decisions regarding whether the First Amendment
extends to disruption of intimate relationships
unrelated to protected expression, and no intervening
pertinent Supreme Court decisions exist, this
foundational question may not be decided at the panel
level. Atonio v. Wards Cove Packing Co., 810 F.2d 1477
(9th Cir.1987) (en banc), cert. denied, 485 U.S. 989
(1988). The split’s existence is undeniable. Compare
IDK, Inc. v. Clark County, 836 F.2d 1185, 1191-1192
(9th Cir. 1988) (the source of protection for personal
relationships is “the due process clause . . . not the first
amendment’s freedom to assemble” because the latter
“protects groups whose activities are explicitly stated
in the amendment: speaking, worshiping, and
petitioning the government”); Kraft v. Jacka, 872 F.2d
862, 871 (9th Cir. 1989) (citing IDK for the notion
personal relationships involving protected expression
fall under the First Amendment whereas intimate
relationships fall under the Due Process Clause);9
Pickup v. Brown, 740 F.3d 1208, 1233 (9th Cir. 2014)
(deeming intimate relationship claim to fall under

8

And, of course, here present is the added factor of the Mann II
decision’s grant of discretion.

9

Abrogated in other part by Dennis v. Higgins, 498 U.S. 439 (1991)
(Commerce Clause).

App. 18
solely the Fourteenth Amendment);10 and Erotic Serv.
Provider Legal Educ. & Research Project v. Gascon, 880
F.3d 450, 458 (9th Cir. 2018) (interpreting Roberts as
placing intimate relationship protection exclusively
under the Due Process Clause) with Keates v. Koile,
883 F.3d 1228, 1236 (9th Cir. 2018) (“we have held that
claims under both the First and Fourteenth
Amendment for unwarranted interference with the
right to familial association could survive a motion to
dismiss”) and Freeman v. City of Santa Ana, 68 F.3d
1180, 1188 (9th Cir. 1995) (“[t]he First Amendment,
while not expressly containing a ‘right of association,’
does protect ‘certain intimate human relationships,’ as
well as the right to associate for the purpose of
engaging in those expressive activities otherwise
protected by the Constitution”).11

10

Abrogated on other grounds by Nat’l Inst. of Family & Life
Advocates v. Becerra, 138 S. Ct. 2361 (2018) (level of scrutiny for
content-based speech regulation).

11

Although Keates referenced Lee v. City of Los Angeles, 250 F.3d
668, 686 (9th Cir. 2001), Lee is not properly deemed part of the
intra-circuit split because its discussion of the First Amendment
(a) was dicta – neither party briefed the First Amendment claim
on appeal (see 1999 WL 33607094 (C.A.9) at * 21–59) and
(b) referenced as the associational violation the officers’ deliberate
refusal to aid the mother in locating her son, despite her repeated
inquiries, rather than his underlying seizure and incarceration,
indicating that First Amendment protection applied due to the
mother’s petitioning activity. Id. at 678. (“Over the course of the
next two years, Mrs. Lee repeatedly contacted the LAPD regarding
the whereabouts of [son] Kerry Sanders. Each time she was
informed that his whereabouts were unknown”).

App. 19
Thus the Mann II decision may not be read as
recognizing First Amendment protection for
non-expressive relationships; rather that panel
acknowledged the split by citing IDK, Keates, and
Erotic Services Provider regarding which Amendment
pertains to what type(s) of relationships (748 F. Appx.
at 114), and steered a neutral course by holding that
(a) the original complaint fell short “under any theory
recognized by this court;” and (b) could not be viably
amended “regardless whether we characterize it under
the First or Fourteenth Amendments,” except by facts
showing cohabitation at the time of death. Id. at
114-115.
1. The Split Precludes the Officers’ Threshold
Argument
Although the Officers’ opening brief in Mann II
argued against the First Amendment’s application to
non-expressive relationships, Keates’ issuance postbriefing forced the Officers to refrain from that position
at oral argument.12 The same constraints remain in

12

Although, due to Freeman, a split arguably pre-existed Keates,
Freeman’s proclamation of First Amendment protection for
intimate relationships rested on a misreading of Dallas v. Stanglin
as analyzing such associations under the First Amendment. 68 F.3d
at 1188. The Supreme Court actually did the converse. 490 U.S. at
24-25 (“It is clear beyond cavil that dance-hall patrons, who may
number 1,000 on any given night, are not engaged in the sort of
‘intimate human relationships’ referred to in Roberts. The Texas
Court of Appeals, however, thought that such patrons were engaged
in a form of expressive activity that was protected by the First
Amendment. We disagree.”). Unsurprisingly, as no published Ninth
Circuit decision has so cited Freeman, its contribution to the
current split lies in its existence rather than precedential influence.

App. 20
place. However, notwithstanding the general
desirability of resolving the intra-circuit split, because
the judgment can be affirmed without deciding whether
the First Amendment protects non-expressive
associations, en banc hearing isn’t mandatory. See Go
v. Holder, 744 F.3d 604, 614 (9th Cir. 2014) (conc. op.
of J. Wallace).
2. The Split Precludes Reversal
But the split also hampers Plaintiffs by precluding
reversal on any ground that would extend First
Amendment protection to non–expressive associations.
Because Plaintiffs admitted the absence of protected
expression, IDK and Erotic Services Provider bar this
panel from finding that the FAC adequately pleads, or
could be amended to plead, a First Amendment
violation.13 Instead, short of an en banc hearing,
reversal could have hypothetically occurred only if this
Court found a viable Fourteenth Amendment
substantive due process claim, where the question of
expressive conduct does not arise. But, as further
discussed in Section VI.D, post, this lone scenario for
reversal
*

13

*

*

This Court might question how the described constraints can be
harmonized with Mann II’s remand regarding possible
amendment. The answer is that because solely a due process claim
involving cohabitating siblings avoids the present intra-circuit
split, the panel deferred to the district court whether the Manns
should receive an opportunity to resurrect that previously
abandoned ground for liability.

App. 21
[pp. 31-37]
split, nor deviate from IDK, it lacks the power to
address the merits of Plaintiffs’ argument siblings need
not cohabit to obtain intimate relationship protection.
VI. THE SUPREME COURT HAS NOT
CONFIRMED PLAINTIFFS’ EXPANSIVE VIEW
Even if this panel could consider the merits of
Plaintiffs’ primary argument, the strong weight of
authority rejects it. Read in isolation, the quoted
passage from Rotary Club does suggest First
Amendment intimate relationship protection can
exceed fundamental family/household choices.
Nonetheless, as IDK concluded, other Supreme Court
decisions indicate a different and narrower view.
A. THE SUPREME COURT HISTORICALLY PLACED
INTIMATE RELATIONSHIP PROTECTION IN THE DUE
PROCESS CLAUSE
SCOTUS opinions preceding and following Rotary
Club cast considerable doubt on the precision of that
opinion’s First Amendment reference. In Nat’l Ass’n for
Advancement of Colored People v. State of Alabama ex
rel. Patterson, 357 U.S. 449 (1958), the Court
considered whether a state could, as a condition of
doing business there, compel the NAACP to reveal all
its members’ identities. Justice Harlan’s opinion
stressed that “[i]t is beyond debate that freedom to
engage in association for the advancement of beliefs
and ideas is an inseparable aspect of the ‘liberty’
assured by the Due Process Clause of the Fourteenth
Amendment, which embraces freedom of speech.” Id. at
460.

App. 22
In Stanley v. Illinois, 405 U.S. 645, 651 (1972) the
Court deemed fundamental the right to conceive and
raise children, noting that “the integrity of the family
unit” was guaranteed by the Due Process Clause, the
Equal Protection Clause, and the Ninth Amendment.
Two years later, Cleveland Bd. of Educ. v. LaFleur, 414
U.S. 632, 639 (1974) proclaimed “freedom of personal
choice in matters of marriage and family life is one of
the liberties protected by the Due Process Clause,”
which Justice Brennan’s majority opinion reiterated in
Smith v. Org. of Foster Families For Equality &
Reform, 431 U.S. 816, 842 (1977) (quoting LaFleur).
Likewise, Moore v. City of E. Cleveland, Ohio, 431
U.S. 494, 499-500 (1977) expressly and exclusively
identified due process protection for the right of a
grandmother to live with her grandson in public
housing. Justice Powell’s plurality opinion noted that
the Court had previously found due process protection
for “freedom of choice” regarding childbearing, child
custody, and child education, and concluded that
“unless we close our eyes to the basic reasons why
certain rights associated with the family have been
accorded shelter under the Fourteenth Amendment’s
Due Process Clause, we cannot avoid applying the force
and rationale of these precedents to the family choice
involved in this case.” Id. at 500-501. Santosky v.
Kramer (1982) 455 U.S. 745, 753 cited Moore and
various other Supreme Court decisions as examples of
“this Court’s historical recognition that freedom of
personal choice in matters of family life is a
fundamental liberty interest protected by the
Fourteenth Amendment.”

App. 23
B. ROBERTS DISTINGUISHED
ASSOCIATION PROTECTION

THE

SOURCES

OF

None of the above cases even hinted at potential
First Amendment protection for non-expressive
relationships. Consistently with this dearth, in Roberts
v. U.S. Jaycees, 468 U.S. 609, 617–618 (1984), where
the excluded females pled both First and Fourteenth
Amendment violations, the Court described the
associational right as bearing two aspects: the liberty
to enter into and maintain “certain intimate human
relationships” free from undue government intrusion;
and the right to associate for the purpose of First
Amendment activity, i.e., speech, religion, petition, or
assembly; concluding that it would separately analyze
each claim/right.
Roberts gave as examples of the liberty-protected
relationships those “that attend the creation and
sustenance of a family” – marriage, raising and
educating children, and “co-habitation with one’s
relatives,” citing Moore, NAACP, LaFleur, and Stanley.
Id. at 619–620. Here, the Court emphasized the
attributes of relative smallness, high selectivity in
formation and maintenance, and seclusion from others
as hallmarks of intimacy, deeming all other
relationships to fall along a spectrum of potential
protection from various State incursions. Id. at 620.
Only later, and under a separate heading, did Justice
Brennan’s opinion for a unanimous Court15 address the
expressive freedoms, stating that “we have long

15

Justice O’Connor concurred in the judgment but diverged on the
First Amendment expression analysis. Id. at 631-636.

App. 24
understood as implicit in the right to engage in
activities protected by the First Amendment a
corresponding right to associate with others in pursuit
of a wide variety of political, social, economic,
educational, religious, and cultural ends.” Id. at 622.
Thus, Rotary Club, after reciting the protection for
intimate family relationships afforded by the Court’s
past decisions (including Moore) incorrectly categorized
its intimate relationship quote of Roberts to the First
Amendment. 481 U.S. at 545 (“We have emphasized
that the First Amendment protects those relationships,
including family relationships”). No such prior
emphasis had occurred; to the contrary, the past
emphasis rested squarely on the Due Process Clause.
And, like Roberts, Rotary Club addressed First
Amendment protection for expressive conduct in a
separate section of the opinion. Id. at 548.
C. LATER OPINIONS ARE INCONSISTENT WITH ROTARY
CLUB’S SOLITARY REFERENCE
Subsequent Supreme Court opinions confirm
Rotary Club’s mistaken tethering of intimate
relationships to the First Amendment. City of Dallas v.
Stanglin, 490 U.S. 19, 24 (1989) cited and quoted
Roberts’ distinction between the two types of protected
associations, finding that neither intimacy nor
expressive conduct was involved for dance-hall patrons.
The concurring opinion of Justices Stevens (who had
joined in the Rotary Club majority opinion) and
Blackmun stated that protection for “the opportunity to
make friends and enjoy the company of other people”
fell under the Due Process Clause rather than under
the First Amendment. Id. at 28.

App. 25
Troxel v. Glanville, 530 U.S. 57 (2000), which dealt
with the conflicting state law child visitation rights of
parents and grandparents, yielded a plurality with six
different opinions. Justice O’Connor’s opinion (joined in
by Breyer, Ginsburg, and Rehnquist) identified the
parents’ right to custody of their children as a
fundamental liberty interest protected by the Due
Process Clause. Id. at 65-66. Neither that opinion, nor
any of the other five, mentioned the First Amendment,
save for Justice Kennedy’s dissent, which alluded to it
merely hypothetically. Id. at 95.16
Far more recently, Obergefell v. Hodges, 135 S. Ct.
2584 (2015), in the context of homosexual marriage,
repeatedly identified the Fourteenth Amendment as
the source of protection for the intimacy of marriage.
Id. at 2598, 2600, 2602 (“[t]he right of same-sex couples
to marry that is part of the liberty promised by the
Fourteenth Amendment . . . “) and 2604. Although the
opinion went beyond due process to address the
implications to the Equal Protection Clause from a ban
on gay marriage (id. at 2602-2604), it mentioned the
First Amendment only in the context of clarifying that
it preserves the right to debate the morality of
same-sex marriages, but not as a source of direct
protection for the marriage itself (id. at 2607).
In summary, over the past 60 years, the Court has
consistently identified the Due Process Clause as the
source of intimate relationship protection, without

16

“Pierce and Meyer, had they been decided in recent times, may
well have been grounded upon First Amendment principles
protecting freedom of speech, belief, and religion.”

App. 26
suggesting a First Amendment analog – its unique
contrary statement in Rotary Club, which inaccurately
described its prior decisions, aptly held no sway over its
subsequent analyses.
D. PLAINTIFFS ABANDONED THEIR DUE PROCESS
CLAIM
Despite the suitability of a substantive due process
theory as the vehicle for an intimate relationship claim,
and the absence of a corresponding intra-circuit split,
Plaintiffs may not so proceed because:
(a)
the opening brief fails to address the
Fourteenth Amendment violation theory’s dismissal, so
the matter is waived (see United States v. Kama, 394
F.3d 1236, 1238 (9th Cir. 2005));
(b)
nor should this Court exercise its discretion
to nonetheless consider the FAC’s substantive due
process claim (e.g., for lack of apparent prejudice to the
Officers). After pleading such a violation in the Mann
II complaint, Plaintiffs abandoned it in the district
court, which abandonment they expressly confirmed on
appeal. Yet, they re-pled that theory following remand
without permission from the
*

*

*

App. 27

APPENDIX 3
Case Number 19-15483
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed: May 13, 2020]
__________________________________________
ROBERT MANN, Sr., et al.,
)
Plaintiffs/ Appellants,
)
)
vs.
)
)
CITY OF SACRAMENTO, et al.
)
Defendants/ Appellees,
)
and
)
JOHN C. TENNIS; RANDY R. LOZOYA, )
Defendants/ Appellees.
)
__________________________________________)
On Appeal From:
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
Case No. 2:17-cv-01201-WBS-DB
Honorable WILLIAM B. SHUBB
JOINT PETITION FOR REHEARING EN BANC
JOHN A. WHITESIDES, SBN 125611
ANGELO, KILDAY & KILDUFF, LLP
601 University Avenue, Suite 150
Sacramento, CA 95825

App. 28
Telephone: (916) 564-6100
Facsimile: (916) 564-6263
Attorneys for Defendants/Appellees
JOHN C. TENNIS and RANDY R. LOZOYA
Susana Alcala Wood, City Attorney (SNB 156366)
Sean D. Richmond, Sr. Deputy City Attorney (SBN 210138)
Office of City Attorney
915 I Street, Fourth Floor
Sacramento, CA 95814
Telephone: (916) 808-5346
Fascimile: (916) 808-7455
Attorneys for Defendants/Appellees CITY OF
SACRAMENTO, SACRAMENTO
POLICE DEPARTMENT, AND SAMUEL D.
SOMERS, JR.

[pp. 2-6]
A. REHEARING IS NEEDED TO RESOLVE AN
INTRA-CIRCUIT SPLIT ABOUT THE SUPREME
COURT’S INTIMATE RELATIONSHIP DECISIONS
Over the past century, the Supreme Court
repeatedly recognized the personal liberty to make
decisions about fundamentally private matters such as
marriage, bearing and raising children, and
cohabitation. With just one exception – Board of
Directors of Rotary International v. Rotary Club of
Duarte, 481 U.S. 537, 545 (1987) – the Supreme Court
never identified this freedom’s source as the First
Amendment’s assembly protection; rather the Court
persistently selected the Fourteenth Amendment’s Due
Process Clause. Accordingly, in IDK, Inc. v. Clark

App. 29
County, 836 F.2d 1185, 1191-1192 (9th Cir. 1988), this
Court surveyed those decisions and held that
relationships not involving expressive conduct/speech
lack First Amendment protection, meaning that purely
intimate relationships, such as in households, fall
solely under the Due Process Clause.
But despite IDK’s theoretically binding effect on
subsequent panels, only some Ninth Circuit opinions
adhered to its distinction between First and Fourteenth
Amendment associational protections2 – several other
panel opinions stated or indicated, without mentioning
IDK, that intimate relationships qualify for First
Amendment protection even absent expressive
conduct.3 Unknowingly, the latter cases created an
2

Kraft v. Jacka, 872 F.2d 862, 871 (9th Cir. 1989) (citing IDK for
the notion personal relationships involving protected expression
fall under the 1st Amend. whereas intimate relationships fall
under the Due Process Clause), abrogated in other part by Dennis
v. Higgins, 498 U.S. 439 (1991); Pickup v. Brown, 740 F.3d 1208,
1233 (9th Cir. 2014) (analyzing 1st Amend. intimate relationship
claim solely under the 14th Amend.), abrogated on other grounds
by Nat’l Inst. of Family & Life Advocates v. Becerra, 138 S. Ct.
2361 (2018). See also Johnson v. Bay Area Rapid Transit Dist., 724
F.3d 1159, 1169 and n.5 (9th Cir. 2013) (expressing uncertainty
over plaintiff’s reference to 1st Amend. rights and analyzing family
association claim solely under due process).
3

Freeman v. City of Santa Ana, 68 F.3d 1180, 1188 (9th Cir. 1995)
(“[t]he First Amendment, while not expressly containing a ‘right of
association,’ does protect ‘certain intimate human relationships,’
as well as the right to associate for the purpose of engaging in
those expressive activities otherwise protected by the
Constitution”). See Lee v. City of Los Angeles, 250 F.3d 668, 686
(9th Cir. 2001) (stating in dicta that the 1st Amendment too
protects intimate relationships).

App. 30
intra-circuit split, which peaked in 2018 when
published opinions on each side of the split issued
within months of one another. Compare Erotic Serv.
Provider Legal Educ. & Research Project v. Gascon, 880
F.3d 450, 458 (9th Cir. 2018) (stating intimate
relationship claims fall under the Due Process Clause,
while expressive association claims come under the
First Amend.), with Keates v. Koile, 883 F.3d 1228,
1236 (9th Cir. 2018) (“we have held that claims under
both the First and Fourteenth Amendment for
unwarranted interference with the right to familial
association could survive a motion to dismiss”).
Mann III functionally joins the split by recognizing
First Amendment protection for purely intimate
relationships. (Appx. at 003-004.) Accordingly, en banc
review under F.R.A.P., Rule 35(b)(1)(A) is needed to
establish uniformity both within the circuit and with
the Supreme Court.
B. THE MEMORANDUM DECISION ALSO CREATES A
DIFFERENT INTRA-CIRCUIT SPLIT REGARDING
PROTECTION FOR SIBLINGS
Although generally entertaining the notion of First
Amendment protection for non-expressive associations,
Mann II essentially mooted it by stating “we analyze
the right of intimate association in the same manner
regardless whether we characterize it under the First
or Fourteenth Amendments.” 748 F. Appx. at 115.
Indeed, neither Freeman, nor Lee, nor Keates,
suggested First Amendment intimacy protection is
broader than under the Due Process Clause. Because
Ward v. City of San Jose, 967 F.2d 280, 283-284 (9th
Cir. 1991) held sibling relationships per se lack due

App. 31
process protection, Mann II deemed cohabitation
necessary for a constitutional claim to proceed. See
Moore v. City of E. Cleveland, Ohio, 431 U.S. 494,
499-500 (1977) (city could not prohibit relatives from
residing together).
Yet Mann III disagreed, stating that, since Ward
governs solely Fourteenth Amendment claims, siblings
need not show cohabitation to gain First Amendment
protection, which necessarily treats the latter as
broader. Appx. at 003-004. Another panel recently
experienced, and more sharply, the same disagreement.
J.P. by & through Villanueva v. County of Alameda,
2020 WL 995203 (9th Cir. 2020) (compare *2 [“{n}o
viable loss-of-familial-association claim exists for
siblings under the First Amendment”] with *3 [diss. op.
of J. Paez – Ward did not address distinct and broader
sibling rights under the 1st Amend.]). See Wheeler v.
City of Santa Clara, 894 F.3d 1046, 1061 (9th Cir.
2018) (conc. op. of J. Wardlaw – “siblings do not have a
constitutional right to loss of companionship,” citing
Ward). Accordingly, if First Amendment protection can
apply to a non-expressive relationship, en banc
rehearing is required to resolve the subsidiary internal
split about whether such protection matches, or rather
exceeds, that under the Due Process Clause, and thus
whether Ward has ongoing practical viability.
C. THE QUESTION OF SIBLING ASSOCIATIONAL
RIGHTS SHOULD BE RESOLVED
Strictly speaking, as a memorandum decision,
Mann III’s sibling rights divergence from Mann II and
Ward doesn’t qualify as a true precedential split.
Nonetheless, under what circumstances, if any, the

App. 32
Constitution encompasses sibling relationships (absent
expressive conduct) qualifies as an exceptionally
important question under Rule 35(b)(1)(B) because
(1) such standing to sue will greatly expand the class of
potential plaintiffs in child removal, police
seizure/force, and prison/institutional death cases; and
(2) other circuits to consider the matter found either
no, or far more limited, constitutional protection.
Valdivieso Ortiz v. Burgos, 807 F.2d 6, 8-9 (1st Cir.
1986) (refusing to recognize claim by adult siblings);
Gorman v. Rensselaer County, 910 F.3d 40, 47 (2d Cir.
2018) (interference with siblings must target their
relationship); Trujillo v. Board of County
Commissioners, 768 F.2d 1186 (10th Cir. 1985)
(siblings possess standing to sue only if their
relationship was the target of state action); Bell v. City
of Milwaukee,
*

*

*

[pp. 9-21]
The Manns appealed. The second panel: labeled
Mann II’s requirement of cohabitation for sibling
associational protection “dicta;” stated that
cohabitation was merely one of various intimacy
criteria the district court could consider; restricted
Ward’s holding to Fourteenth Amendment claims (and
thus indicated that First Amendment intimate
association rights may be broader); asserted Mann II’s
remand logically contradicted a recognition Ward
barred a sibling First Amendment claim; and
remanded for the district court to reevaluate the First
Amendment claim. Id. at 003-004. This petition
followed.

App. 33
III. SOME PANELS HAVE NOT FOLLOWED
IDK’S LIMITATION OF FIRST AMENDMENT
ASSOCIATIONAL PROTECTION
A. IDK APTLY REGARDED
ROTARY
CLUB’S
REFERENCE TO THE FIRST AMENDMENT AS
ANOMALOUS
As asserted above, for decades the Supreme Court
tethered the liberty to make certain personal choices to
the Fourteenth Amendment’s Due Process Clause,
which the Court stated in Meyer v. Nebraska, 262 U.S.
390, 398 (1923) preserved the freedoms “to marry,
establish a home and bring up children.” Forty years
later, Griswold v. Connecticut, 381 U.S. 479, 482-483
(1965) reversed the convictions of doctors who advised
spouses about contraceptives, with Justice Douglas’
majority opinion explaining that the First Amendment
preserved the doctors’ right to disseminate information
and to associate with their patients for that purpose.
But Griswold did not suggest that the First
Amendment also protected the marital relationship or
the couple’s right to choose against child-bearing.
Accordingly, the Court continued to cite due process,
but not the First Amendment, as the liberty source in
Loving v. Virginia, 388 U.S. 1, 12 (1967) (marriage is a
fundamental freedom regardless of potential spouse’s
race); Stanley v. Illinois, 405 U.S. 645, 651 (1972) (re
child-bearing and rearing – “[t]he integrity of the
family unit has found protection in the Due Process
Clause of the Fourteenth Amendment”); Cleveland Bd.
of Educ. v. LaFleur, 414 U.S. 632, 639 (1974) (“freedom
of personal choice in matters of marriage and family
life is one of the liberties protected by the Due Process

App. 34
Clause”); Smith v. Org. of Foster Families For Equality
& Reform, 431 U.S. 816, 842 (1977) (quoting LaFleur);
Moore, 431 U.S. at 499-501 (right of relatives to
cohabitate); and Santosky v. Kramer, 455 U.S. 745, 753
(1982) (citing Moore as an example of “this Court’s
historical recognition that freedom of personal choice in
matters of family life is a fundamental liberty interest
protected by the Fourteenth Amendment”).
Similarly, Roe v. Wade, 410 U.S. 113, 153 (1973)
addressed challenges to anti-abortion laws pled under
almost every Amendment, cataloged the Court’s prior
privacy right decisions by the Amendment cited,6 and
deemed the Due Process Clause the most apt source of
protection – “[t]his right of privacy, whether it be
founded in the Fourteenth Amendment’s concept of
personal liberty and restrictions upon state action, as
we feel it is . . . ” (Emphasis added.) Essentially, Roe
combined liberty and privacy analysis to a single
result – that government may not unduly interfere
with a person’s freedom to make certain choices about
fundamentally private matters.
Thus, prior to hearing Roberts v. U.S. Jaycees, 468
U.S. 609, 617–618 (1984), the Court had not once
invoked the First Amendment as a source of family
relationship protection. Roberts addressed a fraternal
organization’s challenge to Minnesota’s antidiscrimination laws regarding the exclusion of females
6

Roe placed only one prior decision in the First Amendment
category, Stanley v. Georgia, 394 U.S. 557, 564-565 (1969), which
recognized the convicted man’s right to watch obscene films in his
home as part of free speech. Roe described Griswold as invoking
the “penumbra of the Bill of Rights.” 410 U.S. at 152.

App. 35
as club members. The Court described the associational
right as bearing two aspects: the fundamental liberty
to enter into and maintain “certain intimate human
relationships” free from undue government intrusion,
which it labeled “intrinsic;” and the right to associate
for the purpose of First Amendment activity, i.e.,
speech, religion, petition, or assembly, which the Court
termed “instrumental;” concluding that it would
separately analyze each claim/right. Id. at 617-618.
Roberts gave as examples of the liberty-protected
“highly-personal” relationships those “that attend the
creation and sustenance of a family” – marriage,
raising and educating children, and “co-habitation with
one’s relatives.” Id. at 619–620. Here the Court
emphasized the attributes of relative smallness, high
selectivity in formation and maintenance, and
seclusion from others as hallmarks of intimacy,
deeming all other relationships to fall along a spectrum
of potential protection from various State incursions.
Id. at 620.
Nowhere in that first discussion did Roberts identify
a particular constitutional source of intrinsic
relationship protection. In contrast, later, and under a
separate heading, Justice Brennan’s opinion for a
unanimous Court addressed the expressive freedoms,
stating that “we have long understood as implicit in the
right to engage in activities protected by the First
Amendment a corresponding right to associate with
others in pursuit of a wide variety of political, social,
economic, educational, religious, and cultural ends.”
Id. at 622. Thus Roberts neither declared the First
Amendment as preserving intrinsic relationships, nor

App. 36
deemed those relationships to encompass mere
blood kinship.
Rotary Club too involved the exclusion of women
from a fraternal organization. Justice Powell’s opinion
for an (again) unanimous Court stated it would track
Roberts’ approach of separately analyzing intimate
relationships from expressive ones. 481 U.S. at 544545. After stating the “freedom to enter into and carry
on certain intimate relationships is a fundamental
element of liberty protected by the Bill of Rights,” the
Court noted it had previously recognized
corresponding protection for marriage, children, and
“cohabitation with relatives,” added that non-family
relationships could be protected, then stated that “[w]e
have emphasized that the First Amendment protects
those relationships, including family relationships,
that” bear sufficient hallmarks of intimacy, citing
Roberts. Id. at 545.
But, as demonstrated above, no such First
Amendment emphasis previously occurred; to the
contrary, Roberts spoke of it solely regarding
expression; otherwise the past family focus lay
squarely on the Due Process Clause. And, a year later,
Justices Stevens and Blackmun concurred in City of
Dallas v. Stanglin, 490 U.S. 19, 28 (1989) by saying
that the freedom to “enjoy the company of other
people,” regardless of location, “involves substantive
due process rather than the First Amendment right of
association,” which is especially significant because
Stevens had joined in both the Roberts and Rotary Club
majority opinions. Nor, since Rotary Club, has a
Supreme Court justice (even in a dissent) referenced

App. 37
the First Amendment as a source of intrinsic/intimate
relationship protection.
B. IDK CONSTRUED THE PRECEDENTS
SOLELY DUE PROCESS PROTECTION

TO

GRANT

This circuit did not mechanically accept at face
value Rotary Club’s inexplicable First Amendment
reference. Reviewing First and Fourteenth Amendment
challenges to a Nevada regulation of escort services,
IDK cited Roberts’ distinction between intrinsic and
instrumental associations, noting that the same
relationship could be both intrinsic and instrumental,
then stated that for intrinsic relationships “the
Supreme Court has most often identified the source of
the protection as the due process clause of the
fourteenth amendment, not the first amendment’s
freedom to assemble” because the latter instead
protects speech, worship, and petitioning. 836 F.2d at
1191-1192. IDK then analyzed the escort service’s
intimate association claim solely under due process,
reserving First Amendment analysis for the expressive
association argument. Id. at 1193-1194. Judge
Reinhardt’s dissent also observed this distinction,
though he deemed the escort relationship to qualify for
protection either way. Id. at 1201.7

7

IDK was not alone in its position. Two years later, Judge Posner
wrote “it is sometimes suggested —erroneously, in light of Roberts
and Stanglin — that the First Amendment protects nonexpressive
associations.” Swank v. Smart, 898 F.2d 1247, 1252 (7th Cir.
1990), cert. den. 498 U.S. 853. See Griffin v. Strong, 983 F.2d 1544,
1547 (10th Cir. 1993) (“[w]e believe the familial right of association
is properly based on the ‘concept of liberty in the Fourteenth
Amendment,’” citing IDK).

App. 38
C. THE SPLIT UNKNOWINGLY EMERGED
Seven years after IDK, this circuit in Freeman
reviewed a bar’s First Amendment claim of municipal
interference with its customer relations and (mis)cited
Roberts for the proposition the First Amendment
protects both intimate and expressive associations,
ultimately finding the bar’s relations lacked either
quality. 68 F.3d at 1188. Freeman also mistakenly
construed Dallas v. Stanglin as applying First
Amendment analysis to intimate relationships.8
Freeman made no mention of IDK. However, this
divergence proved practically uneventful until Mann
III, as no Ninth Circuit opinion ever cited Freeman in
this respect.
The same inconspicuousness did not accompany Lee
v. City of Los Angeles, which arose from a wrongfullyseized man’s extradition to New York, and city officials’
later refusal to disclose his location to his mother,
despite her repeated inquiries. 2 5 0 F . 3 d a t 6 7 8 .
Despite that neither party to the appeal briefed the
mother’s associational claims’ dismissal (see 1999 WL
33607094 (C.A.9) at * 21–59), the panel opinion quoted
Rotary Club regarding First Amendment protection for
family relationships and concluded the alleged police
misrepresentations to the mother about her
incarcerated son’s location supported such liability, as
8

“It is clear beyond cavil that dance-hall patrons, who may number
1,000 on any given night, are not engaged in the sort of ‘intimate
human relationships’ referred to in Roberts. The Texas Court of
Appeals, however, thought that such patrons were engaged in a
form of expressive activity that was protected by the First
Amendment. We disagree.” 490 U.S. at 24-25.

App. 39
well as constituted a due process violation. Id. at
685-686. IDK again went unmentioned.
Not only was this section of Lee dictum but it
correctly focused on the mother’s expressive conduct
(petitioning) rather than the original separation from
her son by his arrest. Nonetheless, Lee truly spawned
the internal split – Keates cited it (and Rotary Club) as
precedent, in the non-expressive context of state
removal of a child from the parent’s custody, for the
notion of First Amendment intimate relationship
protection. 883 F.3d at 1236. And, like Lee, Keates
made no mention of IDK. Similarly, despite Petitioners’
briefing on the split, Mann III cited solely Freeman,
Lee, and Keates, while ignoring IDK, et al. Conversely,
neither Erotic Service Provider, nor Pickup, mentioned
Freeman or Lee.
In summary, the current split among panel opinions
originated blindly 25 years ago, deepened, and seems
to be worsening, without any recognition it even exists,
much less an attempt to distinguish IDK or show
superseding Supreme Court authority that would
remove IDK as precedent. See Miller v. Gammie, 335
F.3d 889, 900 (9th Cir. 2003) (en banc). Absent en banc
review of this matter, no reason exists to believe the
growing split will somehow reconcile.
IV. MANN III CREATES A NEW SPLIT
Contrasting with its internal disagreement about
First Amendment protection for purely intimate
associations is this circuit’s previously universal
stance, through Mann II, that the same analysis
applies to all intrinsic relationship claims, First or

App. 40
Fourteenth. See 748 F. Appx. at 115. Certainly, nothing
in Freeman, Lee, or Keates suggests a broader First
Amendment protection.
Concerning siblings, Ward stated that “Supreme
Court precedent” did not support a sibling associational
right, which history would include Rotary Club and
thus seem to transcend which Amendment was
invoked. 967 F.2d at 284. Presumably, Ward considered
that, unlike spouses and parents, siblings do not choose
their relationships but are born into them via their
parents’ decision. Similarly, the cites to Ward in
Wheeler, especially in Judge Wardlaw’s concurrence,
suggest a universal view of sibling rights. 894 F.3d at
1061 (“siblings do not have a constitutional right to loss
of companionship”). Yet, by cabining Ward’s holding of
no sibling associational right to the Fourteenth
Amendment, and allowing the Manns’ First
Amendment claim to proceed, Mann III necessarily
treats the later as broader in scope regarding siblings.
This holding also directly conflicts with Mann II. Nor
is the disagreement limited to this case; as earlier
noted, the same dispute occurred this year, albeit more
openly, in J.P. v. County of Alameda.
Accordingly, if the First Amendment pertains to
intimate association, en banc rehearing is needed to
address (a) whether the same analysis governs all
intimate association claims, First or Fourteenth, and
(b) if not, whether siblings receive greater protection
under the First Amendment, such that Ward’s analysis
governs solely due process claims, which will fade to
insignificance as plaintiffs’ attorneys elect to plow the
more fertile ground.

App. 41
V. NO OTHER CIRCUIT RECOGNIZES AN
INCIDENTAL SIBLING
INTERFERENCE
CLAIM
Since this circuit has not previously recognized by
published opinion sibling relationships as protected in
any setting, Mann III raises an important new issue:
assuming First Amendment sibling protection exists,
does it reach the same level as parent-child so as to
pertain even when the siblings are non-cohabitating
adults and regardless of whether the state actor
knowingly interfered with their relationship?
Underscoring this question’s importance is that, of
the four other circuits to have addressed sibling
relationship protection, the First and Seventh
categorically rejected it, whereas the Second and Tenth
allowed such a claim only where state action targeted
the kinship. (See Section I.C, ante.) Indeed, no other
circuit recognizes liability for incidental interference
with any family relationship, even parents and children
– the Ninth Circuit stands alone in that regard – which
is ironic because the Ninth reached its position (also in
Ward) by following the Seventh, who thereafter
reversed it. See Partridge v. City of Benton, Arkansas,
929 F.3d 562, 568 (8th Cir. 2019) (citing various
circuits’ decisions and noting solely the Ninth Circuit
does not require targeted deprivation); Russ v. Watts,
414 F.3d at 791 (reversing Bell); Rentz v. Spokane
County, 438 F. Supp. 2d 1252, 1264-1265 (E.D. Wash.
2006) (noting change in the Seventh’s position and
describing the Ninth’s recognition of incidental
deprivation as “inadvertent and/or not particularly well

App. 42
thought out under Supreme Court precedent”),
amended in other part at 2006 WL 8437720 (2006).
Although this circuit’s unique position about
incidental family disruption need not be now generally
addressed, whether to extend that anomalous view to
siblings should be decided. Again, because siblings
don’t choose to form their relationships, a lesser level
of constitutional protection fits the lesser liberty
interest involved. And, to date, the Supreme Court’s
family protection decisions haven’t strayed beyond the
household to embrace non-cohabitating relatives. Prior
to Mann III, this circuit proceeded in a similarly
narrow manner. Wheeler, 894 F.3d at 1046 (describing
S. Ct.’s emphasis on daily association rather than
biological relation, such that “few close relationships –
even between blood relations” warrant protection);
Mullins v. State of Oregon, 57 F.3d 789, 793–795 (9th
Cir. 1995) (constitutional protection for family
association requires more than blood kinship).
Thus, if it recognizes First Amendment protection
for sibling associations, this circuit should determine en
banc whether that protection reaches the same level as
for spouses and parents-children.
VI. CONCLUSION
Thirty years ago, the combination of Ward and IDK
plainly declared that sibling relationships must involve
some protected conduct, such as speech or cohabitation,
to achieve constitutional protection. Since then, various
inconsistent panel opinions issued, leading to Mann
III’s contrary holding that sibling relationships may be
protected even absent expressive conduct, cohabitation,

App. 43
or even targeted interference, as other circuits would
require. The precedential division has recently
intensified, affecting this circuit’s decisions both
published and memorandum. Only en banc review can
resolve these internal splits and bring this circuit
closer to its sisters and the Supreme Court.
Dated: May 13, 2020
ANGELO, KILDAY & KILDUFF
/s/ John A. Whitesides
By:________________________
JOHN A. WHITESIDES
Attorneys for Defendants/Appellees
JOHN C. TENNIS and RANDY R.
LOZOYA

App. 44

APPENDIX 4
BRUCE A. KILDAY (S.B. 066415)
Email: bkilday@akk-law.com
JOHN A. WHITESIDES (S.B. 125611)
Email: jwhitesides@akk-law.com
DERICK E. KONZ (S.B. 283730)
Email: dkonz@akk-law.com
ANGELO, KILDAY & KILDUFF, LLP
Attorneys at Law
601 University Avenue, Suite 150
Sacramento, CA 95825
Telephone: (916) 564-6100
Telecopier: (916) 564-6263
Attorneys for Defendants JOHN C. TENNIS and
RANDY R. LOZOYA
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
__________________________________________
ROBERT MANN, SR., et al.,
)
)
Plaintiffs,
)
)
vs.
)
)
CITY OF SACRAMENTO, et al.,
)
)
Defendants.
)
__________________________________________)
Case No.: 2:17-cv-01201-WBS DB

App. 45
MEMORANDUM OF POINTS AND
AUTHORITIES IN SUPPORT OF
DEFENDANTS JOHN C. TENNIS AND
RANDY R. LOZOYA’S MOTION TO
DISMISS PLAINTIFFS’ FIRST
AMENDED COMPLAINT [Rule 12(b)(6)]
Date: March 11, 2019
Time: 1 :30 PM
Ctrm. 5
Honorable William B. Shubb
[pp. 10-13]
(9th Cir. 1985) (“{i}n other words, the plaintiff must
show that the particular facts of his case support a
claim of clearly established right”).
B. PLAINTIFFS’ PUTATIVE RIGHTS WERE
CLEARLY ESTABLISHED BY ANY COURT

NOT

1. Sibling Association Under The Due Process
Clause
Plaintiff(s)’ associational right under the Due
Process Clause was unclear as of July of 2016. First,
neither the Ninth Circuit, nor the Supreme Court, nor
a consensus of other circuits had previously recognized
a protected associational right between adult siblings.
The Ninth Circuit squarely rejected sibling rights
under the Fourteenth Amendment in Ward v. City of
San Jose, 967 F.2d 280, 283-84 (9th Cir. 1991), without

App. 46
referring to cohabitation.5 Furthermore, Ward
disagreed with the Tenth Circuit’s recognition of
sibling rights in Trujillo v. Board of County
Commissioners, 768 F.2d 1186 (10th Cir.1985). The
First Circuit, including then Judge Breyer, held
similarly to Ward in Valdivieso Ortiz v. Burgos, 807
F.2d 6, 8 (1st Cir. 1986) (refusing to recognize sibling
associational right without discussing residency).
Accordingly, adult sibling associational protection
under the Due Process was not clearly established
outside of the Tenth Circuit.
Indeed, as recently as 2013, this Court found no
sibling associational right under the Due Process
Clause as to a cohabitating, but not blood kin or
adopted, minor removed from the home, with the
primary analytical ground being the general lack of
sibling associational protection (vs. the lack of
biological or legal relation). Olvera v. County of
Sacramento, 932 F. Supp. 2d 1123, 1148 (E.D. Cal.
2013) (J. Shubb). Also, this Court will likely recall that,
during the original motion to dismiss, Plaintiffs
expressly stated that the Due Process Clause did not
protect sibling relationships, which position was
tantamount to an admission such rights were not
clearly established. (ECF # 18, p. 10 [p. 5 of opp.:
“{h}owever, unlike Fourteenth Amendment claims
which encompass only familial parent-child and
spousal relationships not including siblings,” the First
Amendment provides broader protection].)

5

The Ward opinion didn’t describe which relatives lived with the
decedent at the time of death.

App. 47
2. Sibling Association
Amendment

under

the

First

Prior to July of 2016, neither the Supreme Court,
nor the Ninth Circuit, nor a strong majority of other
circuits, had recognized intimate relationship rights for
adult siblings under the First Amendment. To the
contrary, five other circuits expressly reject(ed) First
Amendment protection for any intimate relationships,
absent expressive activity. See Christensen v. County of
Boone, IL, 483 F.3d 454, 462-63 (7th Cir. 2007)
(disruptioii of unmarried romantic relationship that
lacked expressive aspect better addressed under Due
Process Clause than under 1st Amend.); Kolley v. Adult
Protective Servs., 725 F.3d 581, 587 (6th Cir. 2013)
(dismissing 1st Amend. claim on grounds intimate
association protection for a child removal falls
exclusively under the 14th Amend.); Griffin v. Strong,
983 F.2d 1544, 1547 (10th Cir. 1993) (“[w]e believe the
familial right of association is properly based on the
‘concept of liberty in the Fourteenth Amendment”’);
McCabe v. Sharrett, 12 F.3d 1558, 1563 (11th Cir.
1994) (absent allegation of association with husband to
engage in 1st Amend. activity, interference with
marriage claim solely implicated liberty interest);
Uwadiegwu v. Dep’t of Soc. Servs. of the Cty. of Suffolk,
91 F. Supp. 3d 391, 397 (E.D.N.Y. 2015) (disruption of
family relations falls under 1st Amend. analysis if
retaliatory for speech, but otherwise is analyzed under
substantive due process), affd, 639 F. Appx. 13 (2d Cir.
2016); JL v. New Mexico Dep’t of Health, 165 F. Supp.
3d 996, 1040-1041 (D.N.M. 2015) (right to family
association “is not protected by the First Amendment
but rather by the Fourteenth-Amendment” where “[t]he

App. 48
complaint alleges the deprivation of the right to family
association as an end in itself, not as a deprivation of
an association for the purpose of pursuing activities
protected by the First Amendment”).
And, prior to the panel decision in this case, the
Ninth Circuit’s position regarding First Amendment
protection for familial association was anything but
clear. IDK, Inc. v. Clark County, 836 F.2d 1185, 11911192 (9th Cir. 1988) deemed the Due Process Clause
the exclusive source of family relationship protection,6
whereas Lee v. City of Los Angeles, 250 F.3d 668, 686
(9th Cir. 2001) referenced both the First and
Fourteenth Amendments as applicable to the parentchild relationship, although that reference focused on
expressive activity, i.e., the mother’s petitioning of local
authorities for assistance in locating her son, rather
than the original disassociation by his seizure and
incarceration. Although Lee and IDK can be
harmonized by IDK’s recognition (at 1192) that “a
single association may have both intimate and
expressive features and therefore be entitled to claim
the protection of both the first and fourteenth
amendments,” the Ninth Circuit remains divided on
this threshold issue. Compare Erotic Serv. Provider
Legal Educ. & Research Project v. Gascon, 880 F.3d
450, 458 (9th Cir. 2018), amended at 881 F.3d 792 (9th
Cir. 2018) (interpreting Roberts as placing intimate

6

Kraft v. Jacka, 872 F.2d 862, 871 (9th Cir. 1989), abrogated in
other part by Dennis v. Higgins, 498 U.S. 439 (1991) (Commerce
Clause), cited IDK for the notion personal relationships involving
protected expression fall under the First Amendment whereas
intimate relationships fall under the Due Process Clause.

App. 49
relationship protection exclusively under the Due
Process Clause) with Keates v. Koile, 883 F .3d 1228,
1236 (9th Cir. 2018) (deeming both First and
Fourteenth Amendments to apply to familial
association claim by mother regarding removed child).
In short, no Ninth Circuit case prior to the panel
decision herein even suggested First Amendment
protection for adult sibling association might exist in
the absence of a causal link to protected conduct.7
Finally, even assuming the Ninth Circuit generally
recognized before 2016 sibling relationship protection
under the First Amendment, the Ninth Circuit had not
until the panel decision herein clarified whether the
elements of a First Amendment associational claim
matched those of a due process claim. In opposing the
original motion to dismiss, Plaintiffs argued their
elements did not duplicate; asserting that solely the
First Amendment protected siblings. (ECF #18, pp. 57.) In one key respect, that uncertainty warrants
qualified immunity - whether the Officers had to
intentionally interfere with the sibling relationship.
The FAC doesn’t factually allege the Officers knew
Joseph’s siblings existed, much less that the Officers
shot Joseph because of their family relations. To the
contrary (and despite the boilerplate malice
averments), the historical averments describe a field

7

Plaintiffs previously invoked the rule that a clearly established
civil right is not rendered unclear by judicial dispute over which
Amendment provides the right’s source. That principle is
misdirected here because the Officers contend Plaintiffs’ putative
right wasn’t clearly established anywhere, i.e., by either the First
or the Fourteenth Amendment.

App. 50
response to citizen reports of an unidentified armed
man rather than a planned assault on an identified
person such as a search or arrest warrant execution.
Although the Ninth Circuit held prior to 2016 a due
process relationship claim did not require targeting of
the family association, First Amendment violation
claims typically do require a causal nexus between the
protected conduct and the state action. Rhodes v.
Robinson, 408 F.3d 559, 567 (9th Cir. 2005); Camacho
v. Brandon, 317 F.3d 153, 160 (2d Cir. 2003) (“To
prevail on a First Amendment claim asserted under 42
U.S.C. § 1983, a plaintiff must prove by a
preponderance of the evidence that . . . a causal
relationship existed between the constitutionally
protected expression and the retaliatory action”);
Wingate v. Gage County Sch. Dist., No. 34, 528 F.3d
1074, 1081 (8th Cir. 2008) (freedom of association claim
requires protected conduct as a substantial factor in
the defendant’s decision to act). Accordingly, one other
circuit requires a causal connection between the state
action and the family relationship for First Amendment
liability. Clemente v. Vaslo, 679 F.3d 482, 495-496, at
n. 7 (6th Cir. 2012) (treating intimate association claim
as sounding solely under Due Process Clause where no
evidence showed a causal connection between family
relationship and employment termination).8 Thus the
8

Although a single sister circuit holding may, at first blush
appear, underwhelming, that paucity stems from the fact most
circuits refuse to recognize liability for coincidental family
interference even under the Fourteenth Amendment. See RoblesVazquez v. Garcia, 110 F.3d 204, 206, fn. 4 (1st Cir. 1997); Love v.
Riverhead Cent. Sch. Dist. 823 F.Supp.2d 193, 200 (E.D.N.Y. 2011)
(predicting 2d Circuit would follow the majority view requiring

App. 51
law in sister circuits as of 2016 did not indicate that
the Ninth Circuit or Supreme Court would likely
recognize First Amendment liability for deprivations of
family association causally unrelated to expressive/
associational activity.
3. Protection for Visitation or
Cohabitation Wasn’t Recognized

past

Although the right of family members to cohabitate
was established by the U.S. Supreme Court prior to
July of 2016, neither the Court, nor the Ninth Circuit,
nor other circuits, had by then held that a sibling claim
for deprivation of an intimate relationship can rest on
past

targeted disassociation, even regarding minors); Chambers v. Sch.
Dist. of Phila. Bd. of Educ., 587 F.3d 176, 191-192 (3d Cir. 2009)
(extending requirement of deliberate interference to parental
relationships with minor children); Shaw v. Stroud, 13 F.3d 791,
804-805 (4th Cir. 1994) (“because the Supreme Court has never
extended the constitutionally protected liberty interest
incorporated by the Fourteenth Amendment due process clause to
encompass deprivations resulting from governmental actions
affecting the family only incidentally, we decline to sanction such
a claim at the present time”); De Fuentes v. Gonzales, 462 F.3d
498, 505 (5th Cir. 2006) (incidental disruption of parental right
insufficient); Russ v. Watts, 414 F.3d 783, 790-791 (7th Cir. 2005)
(no standing by parents to sue for unintentional disassociation
from adult son by police shooting); Reasonover v. St. Louis County,
447 F.3d 569, 585 (8th Cir. 2006) (mother’s incarceration did not
target her relationship with her minor daughter); Lowery v.
County of Riley, 522 F.3d 1086, 1092 (10th Cir. 2008) (father’s
incarceration did not target disruption of relationship with
daughter); Robertson v. Hecksel, 420 F.3d 1254, 1260 (11th Cir.
2005) (no protection for untargeted disruption to adult child’s
association with parent).

